<html>
<title> - ENSURING THE RIGHTS OF COLLEGE STUDENTS TO VOTE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         ENSURING THE RIGHTS OF
                        COLLEGE STUDENTS TO VOTE

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

               HELD IN WASINGTON, DC, SEPTEMBER 25, 2008

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html






                  U.S. GOVERNMENT PRINTING OFFICE
47-731                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001









                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                      Will Plaster, Staff Director

 
            ENSURING THE RIGHTS OF COLLEGE STUDENTS TO VOTE

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 2008

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:00 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) Presiding.
    Present: Representatives Brady, Davis of California, Davis 
of Alabama, and Ehlers.
    Staff Present: Thomas Hicks, Senior Election Counsel; 
Janelle Hu, Election Counsel; Jennifer Daehn, Election Counsel; 
Matt Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Kristin McCowan, Chief Legislative Clerk; 
Daniel Favarulo, Legislative Assistant, Elections; Robert 
Henline, Legislative Assistant; Fred Hay, Minority General 
Counsel; Ashley Stow, Minority Election Counsel; Bryan T. 
Dorsey, Minority Professional Staff; and Salley Collins, 
Minority Press Secretary.
    The Chairman. I would like to call the hearing on House 
Administration to order. Today's hearing will focus on voting 
for college students, the difficulties they face, and how we 
can ensure their right to vote. I would like to recognize 
myself for an opening remark.
    In 2008, 44 million Americans 18 to 29 years old are 
eligible to vote, more than one-fifth of the voting population. 
And young voters in primaries and caucuses this year have more 
than doubled their turnout from previous elections. Students 
are also volunteering in greater and greater numbers.
    The historic 2008 Presidential election clearly has young 
voters energized like never before; however, college students 
today face barriers to vote, restricting or vague residency 
requirements confuse both election officials and students. Many 
States require forms of identification at the polls that 
students simply do not have. Some election officials still 
believe the myth that young people don't care about voting and 
don't provide enough machines in college towns. Even worse, 
deceptive fliers on college campuses have threatened students' 
financial aid and health care if they register to vote on 
campus.
    Several of our witnesses today have done a great job of 
protecting the rights of college students to vote. I hope this 
hearing today sends the message to election officials and 
university presidents to take steps to encourage and protect 
student voting rights.
    We also will hear from students and student advisor 
organizations who have encouraged students to vote in this 
historic Presidential election. Studies have shown that for the 
first-time voters cannot register and vote the first time they 
try, they will be less likely to participate in future 
elections. We owe it to our young voters and our democracy to 
do what we can to encourage a new generation of American 
voters.
    [The statement of Mr. Brady follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. I will now ask our Ranking Member Mr. Ehlers 
if he has any statement.
    Mr. Ehlers. Thank you, Mr. Chairman. Yes, I do.
    I thank you for calling today's hearing on this important 
and timely issue. With the excitement surrounding the upcoming 
election, particularly with young Americans who may be casting 
a vote for President for the first time, we must do everything 
that we can to encourage participation in the elections 
process. I know I personally have been involved when I was a 
professor at a small, but excellent college. I was involved in 
recruiting people to register students to vote, putting them at 
the end of the registration line and nabbing the students as 
they came out of their college registration, and saying, ``hey, 
you registered at the college, now register to vote.'' And we 
got quite a few that way. It is a good thing to do.
    I look forward to hearing from our witnesses today on the 
efforts to educate student voters. We must also ensure that 
voting advocacy groups that tour college campuses respect the 
laws of each State they visit and adjust their instructions 
accordingly, as many States have varying residency requirements 
to cast a ballot. And I want to emphasize that because of my 
work in this committee, I have encountered shady registration 
practices in various States where the registrars simply 
disregard the rules and tell the students they can do anything 
they want. That is not true. We have to follow the laws of the 
State. It is not Federal law, but State law.
    In order to get young people excited about participating in 
the electoral process, elections administrators and third-party 
groups must find new and creative ways to reach out to college-
age voters. One such approach that I am very proud to say comes 
from my home State of Michigan is a mobile branch office which 
is established by Michigan's forward-thinking Secretary of 
State Terri Lynn Land. Michigan's mobile branch office has 
traveled more than 125,000 miles while registering voters, 
issuing driver's licenses, answering questions and offering all 
the services found at a traditional secretary of state branch 
office. Since 2004, the mobile branch office has visited 
Michigan's public universities to assist students in 
registering to vote just before major elections, and it is 
scheduled to visit Michigan's 15 public universities before the 
deadline to register to vote passes. I hope they can also go to 
the smaller private universities. Following the introduction of 
the mobile branch unit, its popularity has resulted in a number 
of universities reserving a spot on the vehicle's calendar 
months in advance in order to coordinate complementary voter 
education activities.
    Unfortunately, Secretary Land could not be with us today to 
discuss this innovative program as she is busy ensuring that 
Michigan is prepared for the upcoming election. However, if 
there are no objections, I would like to submit a description 
of the mobile branch office program for the record.
    The Chairman. Without objection.
    Mr. Ehlers. Thank you.
    [The information follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Ehlers. The success of Michigan's mobile branch program 
has made it a model for other election programs around the 
Nation, but it is only one solution. Through our efforts such 
as today's hearings, we may look for additional ways to 
increase the youth vote in this country and perhaps inspire a 
lifetime of involvement in the elections process. I thank you, 
Mr. Chairman. I reserve the balance of my time.
    The Chairman. Thank you.
    [The statement of Mr. Ehlers follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Any other statements?
    With none, we would like to get on with our first witness, 
the Honorable Congresswoman Jan Schakowsky, representing the 
Ninth Congressional District of Illinois' House of 
Representatives. She currently serves on the House Democratic 
leadership as a chief deputy whip and as a member of the 
Steering and Policy Committee. Representative Schakowsky has 
been a leading advocate for students' voting rights, and I 
commend her for her leadership in introducing the Student VOTER 
Act.
    I would also like to take time to make part of the official 
record testimony submitted by Senator Durbin, who has been a 
leader on the issue and introduced similar legislation in the 
Senate.
    [The statement of Senator Durbin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. I thank my colleague today and look forward 
to your testimony.

   STATEMENT OF THE HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman and Ranking Member 
Mrs. Davis. I am so happy to be here today. I appreciate your 
opening statements that really show your support of students 
having greater access and participation in our electoral 
process.
    I represent the Ninth Congressional District, which is not 
so unusual, and also representing colleges and universities, 
Northwestern University, Loyola University of Chicago, Oakton 
Community College, Truman College. And I want to talk to you 
about this bipartisan legislation and thank my friend 
Congressman Steve LaTourette of Ohio, who is cosponsor with me 
to reduce some of the barriers that college students face when 
trying to vote.
    I want to extend a particular thank you to Matthew Segal, 
who actually brought this legislation to me. And he is the 
founder and executive director of the organization SAVE and 
will be testifying before you.
    But I know there are a number of college students here who 
themselves are advocating on their own behalf, and I want to 
welcome them as well.
    I believe the foundation of America's democracy lies in 
civic engagement and broad participation in government. And 
from the civil rights amendment to women's suffrage to the 
abolition of the poll tax, and finally to the ratification of 
the 26th amendment, this Nation has embarked on a difficult, 
but steady march toward being a more inclusive Nation.
    So in July I introduced H.R. 6704, the Student Voter 
Opportunity to Encourage Registration Act, the Student VOTER 
Act of 2008, which is a continuation of that progress, because 
it provides a pathway to participation for America's youth. The 
need for this bipartisan bill is clear. Despite a small rise in 
youth voting in 2004's Presidential election, young voters, all 
the data shows us, are far less likely to vote than older 
voters. In the 2004 Presidential election, only 47 percent of 
the 18- to 24-year-olds voted compared to 66 percent of 
citizens 25 and older. This marked the eighth straight 
Presidential contest in which less than half of young Americans 
voted.
    While there is a number of factors that contribute to this 
trend, one is clearly the fact that many college students are 
first-time voters and often are unfamiliar with how to 
register. The Student VOTER Act offers a straightforward 
solution. It requires colleges and universities that receive 
Federal funds to provide students the opportunity to register 
to vote on campus. The Student VOTER Act does this by amending 
the National Voter Registration Act of 1993, also known as 
Motor Voter, to designate colleges and universities that 
receive Federal funds as voter registration agencies.
    This legislation will not present a substantial burden to 
our Nation's universities. Already the Federal Election 
Commission has created the national mail voter registration 
form, which allows Americans to register to vote from anywhere 
in the United States. This form can easily be used at any 
university providing registration services for its students. 
For example, even before registration begins, Brown University 
in Rhode Island, just one example, provides its students with 
voter registration materials.
    I am here today to talk with you about my bill, but I also 
understand that my legislation addresses only one of the 
challenges I believe young people will face when they attempt 
to vote this fall. As we have already seen in this election 
year, enthusiasm and interest in the political process is 
stronger among young voters than perhaps at any other time in 
our Nation's history. While this is grounds for optimism, I am 
also troubled by efforts to intentionally mislead young voters 
and/or prevent them from voting. I was shocked to learn about a 
misinformation campaign at Virginia Tech earlier this year 
where fliers were printed and posted around campus that said 
that students who registered to vote in Virginia could no 
longer be claimed as dependants on their parents' tax returns. 
Aside from being wholly inaccurate, this type of misinformation 
can have a devastating consequence by intimidating young voters 
into not voting.
    Another obstacle for young voters is stringent voter ID 
laws. Seven States specify that voters must show a photo ID 
before being permitted to vote. According to a Rock the Vote 
survey, 19 percent of young adults 18 to 29 report they don't 
possess a government-issued photo ID with their current 
address. As a result, thousands, if not hundreds of thousands, 
of college students will be forced to vote provisionally this 
September, for which they may not even receive verification as 
to whether or not their ballots count.
    These examples of the barriers students face today when 
attempting to register to vote demonstrate the importance of 
today's hearing. And again, I want to say that my bill takes 
one step forward by making it easier by making registration 
more available to students on college campuses around the 
country. And I thank the committee very much for inviting me 
today.
    I yield back my time.
    The Chairman. Thank you, and thank you for participating. 
And thank you for your introduction to the Student VOTER Act. 
It is very much needed and appreciated.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Does anybody have any questions for the 
Congresslady?
    Thank you very much again.
    The Chairman. We would like to call panel number one up 
please. And while you are doing that, I would like to recognize 
somebody in the audience. With us is Mr. Ken Smuckler. He is 
president of the InfoVoter Technologies. InfoVoter manages and 
operates the Tom Joyner hotline, the largest national voter 
hotline in the country.
    Please raise your hand, and thank you for participating and 
your interest.
    He is somebody that is going to--is participating or 
listening today that knows he is going to be hearing something 
that he can hopefully won't hear on election day. He is in 
charge of trying to make a lot of problems that happen on 
election day go away or try to solve them at that particular 
16- or 13- or 12-hour window that we have, and hopefully he can 
hear some things today that can maybe help before election day 
happens. And we appreciate your attention and your 
participation.
    I would like to call the panel up to the desk, please. I 
would like to welcome and thank our panel of witnesses today. 
And we start off with Ms. Sheri Iachetta. Thank you. Ms. Sheri 
Iachetta currently serves as a registrar for the city of 
Charlottesville, Virginia. As a registrar Ms. Iachetta has had 
the opportunity serve on many task forces that have been 
important in shaping election administrative procedures, such 
as the State Board of Elections Committee on Electronic Poll 
Books, the State Task Force on Electronic Voting, and the 
National Election Center Task Force on Poll Working Training.
    Thank you, and appreciate your testimony today. Just push 
that button and speak right into the microphone.

       STATEMENTS OF SHERI IACHETTA, REGISTRAR, CITY OF 
 CHARLOTTESVILLE, VIRGINIA; NEIL ALBRECHT, ASSISTANT DIRECTOR, 
    CITY OF MILWAUKEE ELECTION COMMISSION; MARVIN KRISLOV, 
PRESIDENT, OBERLIN COLLEGE; AND CATHERINE McLAUGHLIN, EXECUTIVE 
      DIRECTOR, INSTITUTE OF POLITICS, HARVARD UNIVERSITY

                  STATEMENT OF SHERI IACHETTA

    Ms. Iachetta. Thank you, Mr. Chairman and members of the 
committee. Thank you for giving me this opportunity.
    During my 10 years as registrar in the city of 
Charlottesville, this subject is a significant subject that is 
an integral part of my day-to-day activities, but it is not 
just ensuring that college students have the right, it is 
ensuring that all citizens have the right to vote regardless of 
what group they may be identified with.
    In the city of Charlottesville, we are home of one of the 
State's largest universities. My long-standing policy has been 
to accept at face value what the voter has written on their 
registration form when they fill out their registration form 
wishing to vote. The statement that they sign on their voter 
registration form says, I swear and affirm under felony penalty 
for making willfully false material statements or entries that 
I am a U.S. citizen and a resident of Virginia. The information 
that I have provided on this form is true.
    I don't believe that I have reasonable cause to question 
the statement of a voter simply because they are part of a 
particular group. To do so would create a special class of 
voter. And as you are aware, Virginia falls under section 5 of 
the Voting Rights Act of 1965, and any attempt to create a 
special class of voters would run afoul of this act.
    One of the recurring themes that we hear in Charlottesville 
and in any university community is that students could have 
more than one residence. They have a residence in a dormitory, 
as well as a possible second residence at their family's home, 
which may or may not be in the same State as their college. 
Some of my colleagues in Virginia are not comfortable 
registering students with a dormitory address. Dorms may be a 
more traditional dwelling; however, some students do have off-
campus apartments. Since all voters must be treated in the same 
manner, our inability to identify a voter situation simply 
based on their address precludes my office from treating all 
students to the same standards.
    We also have a significant number of residents in 
Charlottesville that we term ``snow birds,'' and they have a 
residence here for part of the year and then a warmer climate 
for part of the year. They have nearly the same identical 
housing situation as students and need to determine their legal 
residence just as students must.
    A second issue that arises is whether students have the 
expressed intent to remain at their address indefinitely. 
Determining a voter's future intent is beyond the purview of my 
office. Due to the presence of the University of Virginia, 
there are any number of transient professionals who may have an 
expressed intent--who may not have the expressed intent to 
remain at their Charlottesville address indefinitely: doctors 
in residents, visiting professors. There has been no call to 
preclude these individuals from registering to vote. Again, to 
determine the intent of any member of the general population is 
beyond the scope of local resources.
    A third issue raised regarding the registration of students 
is whether they have a vested interest in the operation of 
local government. To this I would answer that students are a 
regular and frequent user of city resources, including the 
roads, emergency services and police resources. They are a 
valuable source of volunteers to any number of community-based 
programs. They are directly affected by all the local 
ordinances, such as bicycles, noise control, trash collection 
and more. I use University of Virginia students as interns in 
my office, as election officials and as volunteers. Moreover, 
students are a significant source of fiscal resources in this 
community not only for the tax dollars that they bring in, but 
since they are included in the census count of local 
populations, significant Federal tax dollars are allotted for 
this locality based on their presence. If their Federal 
taxation dollars are awarded locally, then their representation 
should also be local.
    In summary, students are an integral part of this community 
and, in my opinion, should be afforded the same voter 
registration opportunity as any other citizen residing in the 
Commonwealth of Virginia.
    I hope to continue to work with the Virginia General 
Assembly also to make the laws on residence and domicile more 
definitive and equitable as they relate to students and other 
voters in similar circumstances. Thank you.
    The Chairman. Thank you.
    [The statement of Ms. Iachetta follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Mr. Neil Albrecht. Neil Albrecht is a deputy 
director of the City of Milwaukee Election Commission and has 
held that position since 2005. A life-long resident of the city 
of Milwaukee, Neil has a professional background in finance and 
nonprofit management. Milwaukee has done a great job working 
with area universities to register and assist student voters, 
and we are happy to have Mr. Albrecht here with us today.
    Also, your statements will be also put into the record in 
its entirety. So, Mr. Albrecht.

                   STATEMENT OF NEIL ALBRECHT

    Mr. Albrecht. Thank you. Good afternoon, members of the 
committee, Chairman Brady. Thank you for this opportunity to 
speak today on the important issue of ensuring rights of 
college students to vote.
    Wisconsin experienced the second highest voter turnout of 
any State during the 2004 Presidential election. Turnout in the 
city of Milwaukee was equally significant. The demographics of 
those voting represented the vast diversity of the city's 
residents, including tremendous participation by student voters 
attending local colleges and universities.
    Wisconsin's success in maintaining and inspiring voter 
participation is rooted in the State laws which recognize that 
barriers do exist that can prevent an individual from 
exercising their constitutional right to vote. These barriers 
can be particularly profound for people in low socioeconomic 
classes, seniors, and for students.
    For students, some of the most significant barriers include 
identification requirements, producing an identification 
document that includes the student's name and residential 
address for voter registration purposes. This can be 
particularly challenging for students attending school away 
from their home State. Many of these students live in campus 
housing, and most college and university ID cards do not 
include residential address information. Additionally, students 
living in roommate housing situations may not appear on leases, 
utility bills or other documents often used as proof--to fill 
proof of residence requirements.
    Secondly, students are often challenged by a lack of easily 
accessible information or inaccurate information relating to a 
State's voter qualification laws and voter registration 
process.
    Thirdly, the challenge of actually completing the voter 
registration process prior to an election, given a lack of 
information, complex schedules, the proximity of the election 
to the start of a semester, and an obvious focus on academics.
    Lastly, as laws vary from State to State, there is often 
confusion and/or the dissemination of incorrect information 
regarding registration requirements, absentee ballots and 
voting requirements. Misinformation is particularly problematic 
when it implies a false connection between residency for tax 
filing and residency to register to vote.
    Wisconsin's election laws and rules clearly recognize these 
barriers and include provisions that allow and even encourage 
students, many of them first-time voters, to participate in the 
democratic process. Most notably Wisconsin allows election day 
registration. During Wisconsin's last gubernatorial election, 
over 90 percent of the voters at one polling site near 
Marquette University registered to vote on the day of election. 
Beyond any doubt, the opportunity for election day and 
registration in Wisconsin allowed thousands of students to vote 
in the last election and is key to ensuring the student vote.
    In addition to election day registration, since 1980, 
colleges and universities in Wisconsin may provide 
municipalities with lists of students residing in campus 
housing prior to an election. These lists are distributed to 
the appropriate voting sites, and students appearing on these 
lists may use their student ID cards without an address as 
proof of residence. The success of the single provision--I am 
sorry, the success of the single provision in Milwaukee has 
been significant. For students in noncampus housing, Wisconsin 
allows a voter to appear at a voting site with a corroborating 
witness. A corroborating witness may certify the name and 
address of another voter by signing their registration 
application and providing a proof of residence demonstrating 
their own residency.
    It is essential to recognize the importance of technology 
when discussing student participation in elections. The 
Milwaukee Election Commission posts on the city's Web site 
comprehensive and accurate information as well as all forms 
necessary to register to vote, request an absentee ballot and 
serve as an election worker.
    While any State or municipality such as Milwaukee can 
choose to philosophically embrace the importance of the student 
vote, real voting policy is determined by State and Federal 
law. We must do everything possible to encourage voter 
participation. The opportunity to vote in an election is 
important to all qualified electors and equally important to 
the principle of democracy. I believe this opportunity, free 
from intentional and unintentional barriers, is particularly 
important to students as first-time voters. A problematic or 
disillusioning first-time voting experience can shape an 
individual's voting participation in all future elections.
    I am hopeful that this information provides an insight into 
the important steps Congress can take to encourage student 
voting. I am honored to be here today and proud of the role the 
city of Milwaukee and the State of Wisconsin have taken to 
ensure access to the polls.
    The Chairman. Thank you.
    [The statement of Mr. Albrecht follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Marvin Krislov. Marvin Krislov is currently 
professor of Oberlin College in Ohio, which has made major 
strides in protecting student voting rights. Prior to Mr. 
Krislov's work in Oberlin, he was vice president and general 
counsel at the University of Michigan.
    I thank you for coming here today. We look forward to your 
testimony.

                  STATEMENT OF MARVIN KRISLOV

    Mr. Krislov. Thank you, Mr. Chairman, and thank you members 
of the committee. I am very pleased to be here and talking 
about this important issue.
    I also want to recognize Congresswoman Kaptur, who has 
focused her leadership on providing opportunities for students 
to vote in our district.
    I am here on behalf of Oberlin College and Oberlin College 
students. We are celebrating our 175th anniversary. We are 
known in history for being the first college in America to 
admit students regardless of race or ethnicity, and the first 
to admit women to a coed baccalaureate program.
    I am here today to talk to you about some of the practical 
issues facing students and young people, and hoping that the 
Oberlin experience will help us think about how we can address 
these challenges.
    The most significant recent development at Oberlin in Ohio 
came on February 22nd of this year, when, at the urging of 
students from Oberlin and Ohio colleges, the Office of Ohio 
Secretary of State Jennifer Brunner issued a memorandum ruling 
that colleges and universities can issue utility bills to their 
students, thus enabling them to fulfill the State's proof of 
voter residency requirements. These bills require no payment 
since they reflect services such as telephone, Internet access 
and electricity already provided to students. Oberlin now 
issues such bills to our students. That ruling was the result 
of a 2-year struggle by student and statewide organizations to 
make it easier for Ohio's college students to exercise their 
right to vote.
    The progress we are making on these student voting issues 
is due in large part to the hard work, intelligence and 
persistence of student leaders at Oberlin and other schools. I 
am so proud of their determination to be engaged students and 
citizens and to defend their voting rights.
    While we have made much progress, much work remains. As you 
know, Ohio had been a battleground State in many Presidential 
elections. In recent elections there have been significant 
complaints that many Ohioans, including college students, 
encountered significant obstacles when they tried to vote. 
Countless news articles have reported that certain Ohio 
precincts provided an insufficient number of voting machines.
    Prior to the 2004 election, some election officials let it 
be known that they would vigorously challenge out-of-State 
students who chose to vote in Ohio by requiring a photo 
identification card bearing a current voting address. In 2004, 
such identification was actually not legally required. The 
problems caused by these actions are well documented. In the 
2004 elections, there were lengthy lines and delays at polling 
places. Some students, faculty and staff at Kenyon College, for 
example, waited in line for up to 12 hours. In Oberlin some 
students, faculty and staff, and Oberlin citizens, waited up to 
5 hours to cast their ballot.
    In 2006, Ohio voting law was changed. All Ohioans are now 
required to produce a current and valid photo ID such as an 
Ohio driver's license, which does not need to show a current 
address, or a State ID or government identification or a 
military identification. If the person does not have a photo 
ID, he or she can still vote by producing a copy of a current 
utility bill, bank statement, government check or other 
government document.
    While it is established law that students have the right to 
live and vote in those communities where they attend college, 
practical obstacles to student voting still exist. While the 
majority of Oberlin students have a driver's license, these are 
often issued by the State where their parents reside. Most of 
our students, for example, live in residence halls or co-ops 
and receive mail at the Oberlin College mail room. These 
Oberlin student IDs do not have their home addresses because 
students frequently move from one year to the next.
    Fortunately, Ohio's college students actively work to 
address these voter ID issues and to register to vote. Our 
students, assisted by local board of elections, as well as the 
secretary of state and Congresswoman Kaptur, have, we think, 
taken an important first step by creating the ability for 
colleges to issue utility bills.
    I hope that colleges and universities and State government 
officials adopt this policy. The first experience young people 
have with democracy should not be frustrating. As has been 
discussed, studies show that education is the most important 
socioeconomic factor in voter turnout, meaning the more 
education a person has, it is more likely for him or her to 
vote. And men and women who begin voting as youth continue to 
vote throughout their lives.
    I hope that Oberlin's example can help lead to greater 
cooperation between colleges and communities and States that 
will further our national goal of a vibrant democracy. These 
efforts advance our American values and deserve support from 
colleges and universities as well as all levels of government. 
Thank you.
    The Chairman. Thank you.
    [The statement of Mr. Krislov follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Catherine McLaughlin. Catherine McLaughlin 
serves as the executive director of Harvard University's 
Institute of Politics since 1994. She also served as the 
director of alumni affairs and the coordinator of the press and 
public liaison office at the Kennedy School of Government from 
1986 to 1989. She left the Kennedy School in 1989 to serve as a 
tour manager for the band New Kids on the Block. I think that 
is for our audience. She also worked on several Presidential 
campaigns during the 1980s.
    Thank you, and look forward to your testimony.

               STATEMENT OF CATHERINE McLAUGHLIN

    Ms. McLaughlin. Thank you, Mr. Chairman, Ranking Member 
Ehlers and members of the committee. Thank you for this 
opportunity to come to talk to you about such an important 
subject.
    I am the executive director of the Institute of Politics, 
and the institute was established in 1966 as a memorial to 
President Kennedy. Its mission is to inspire young people to 
get engaged in politics and public service. The mission is born 
out of President Kennedy's call to all of us, but particularly 
to young people, to serve our country and our communities 
through political engagement. That is what we are here talking 
about today: to make sure young people have this opportunity to 
participate in the process.
    We are currently witnessing a political reengagement by 
young people. The 2004 elections represented a reversal of more 
than a decade of declining youth voter turnout. For context, 
prior to 2004, election turnout by 18- to 24-year-olds declined 
by 16 percent between 1972 and 2000. This downward trend was 
reversed in 2004; 47 percent of 18- to 24-year-olds voted, an 
increase of 11 percentage points from the 2000 election.
    Since 2000, the IOP has been conducting a unique national 
poll of political views of 18- to 24-year-olds. Over the years 
we have seen that young people with at least some college 
experience are twice as likely to vote as those who have never 
attended college. Turnout among college-educated young people 
in 2004 was 59 percent, while people with a high school diploma 
was 34 percent. More importantly, 67 percent of college 
students said that as a result of the 2004 Presidential 
election, they were more likely to get involved in politics in 
the future.
    We have seen this new, younger voter momentum be sustained 
so far through the 2008 primary election cycle. According to 
research from CIRCLE at the University of Maryland, youth voter 
turnout doubled, tripled, and even quadrupled in numerous 
States during the primaries and caucuses. We have every reason 
to believe and expect solid turnout in November.
    So how do we make sure that young people, including those 
on college campuses, receive every opportunity to participate 
in elections? It is first important to recognize how many 
college students vote. College students are more likely than 
any other segment of the population, except the military, to 
vote by absentee ballot. In 2003, we found that 39 percent of 
college students preferred to vote in their home State.
    Just before the 2004 elections, our data showed well over 
half of the college students who plan to vote in 2004 would not 
be voting in person. CIRCLE confirmed this data following the 
election. And an important fact for local elected officials to 
know, 78 percent of the college students said they preferred to 
vote in their home State and would like to be registered there.
    In light of that fact, the absentee voting has special 
importance to college students. In 2003, the institute 
developed a guide to absentee voting; a Web-based document that 
is an interactive State-by-State information center about how 
to vote by absentee ballot.
    In addition to that, we are using new technologies to help 
first-time voters. For example, the IOP launched a new Web-
based initiative specifically targeted for the 2008 
Presidential primaries called No Vote, No Voice, aiming at 
increasing youth turnout at the polls. The project featured a 
Facebook application young people could download onto their own 
profiles. Using the application, youth who pledged to vote were 
sent information on State-specific voting deadlines to their 
Facebook page, including those registering to vote and sending 
in ballots.
    Beginning in 2003, the IOP gathered 18 other colleges and 
universities to create the national campaign for political and 
civic engagement. It is a nationwide consortium of colleges and 
universities dedicated to youth engagement. Representatives 
from each of the colleges gather annually to share information 
on how to best register and educate and mobilize people. Young 
leaders from each of the colleges come together for training 
sessions and information sharing.
    One of the most important things that we have learned over 
the years at colleges, it is critical for students to work with 
university officials. Having a presence at mandatory academic 
registration for freshman allows us to get hundreds of students 
who are registering for classes to also register to vote.
    Since 2004, the institute has conducted HVOTE, Harvard 
Voter Outreach and Turnout Effort, a campuswide voter 
registration and mobilization project whose goal is to provide 
Harvard students with the information they need.
    Both of these efforts have helped us in just the past week 
register 500 Harvard college students and helped 400 others 
complete their absentee request forms.
    In addition, this summer Eric Hysen, a sophomore at the 
college, created a new Web site called Campus Voices. This site 
allows students across the country to voice their opinion, but 
it also provides links to a variety of nonpartisan sites that 
provide State-by-State registration, confirmation of 
registration, information on absentee ballots and locations at 
polling places.
    All that said, it is important to note that most 
universities do not have an organization with a professional 
staff like the Institute of Politics who can help the students. 
The absentee ballot process for the students across the country 
can still be difficult to navigate. State laws are diverse and 
especially difficult for first-time voters and cause great 
confusion. Creating a more simplified registration and absentee 
ballot voting system would help sustain increased electoral 
participation.
    Finally, we need to make sure students have the information 
they need to vote, targeting voter education sections of State 
election Web sites toward students to help make voting by 
absentee easier. Although some States already provide some of 
this information, it would be beneficial if all States could do 
so; detailed information on absentee ballot, including 
identification and residence requirements, application 
deadlines, downloadable absentee ballots, et cetera.
    In conclusion, we have all seen in the primaries this 
season alone how much an impact the youth vote can have. They 
are excited about voting, and we need to do all we can to 
ensure doing so is easy and streamlined as possible.
    Thank you for your opportunity to speak today.
    The Chairman. Thank you.
    [The statement of Ms. McLaughlin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. I would like to open up our questions with 
one that I have for Mr. Krislov. You said in the 2004 election 
where there was an 8- to 10-hour wait. Was that just a voter ID 
problem?
    Mr. Krislov. Thank you, Mr. Chairman.
    I wasn't in Ohio at the time, but my understanding is that 
there were numerous problems with lack of machinery, issues 
with provisional ballots, as well as voter challenges and voter 
identification. And in addition to the voter identification, 
there have been issues including, even at the primaries this 
year, about provisional ballots and enough machinery. And that 
is something that we have been trying to anticipate because we 
do think there will be extraordinary turnout this fall, and we 
have been trying to talk to the board of elections and working 
with them on things such as the early voting that the Secretary 
of State has authorized.
    The Chairman. Have you allocated more equipment and 
resources to those areas where the heavy voter turnout will be 
on the college campuses?
    Mr. Krislov. It is not the college's resources, so we are 
doing everything we can to educate our students about the 
opportunities. And we have encouraged the board of elections 
and officials to try to create greater resources, but, of 
course, it is the State and local government.
    The Chairman. I will also let Congresslady Marcy Kaptur 
know that you did mention her twice in your statement.
    Mr. Krislov. Thank you very much.
    The Chairman. We will get some help from her to push the 
election board to get more resources in the college campuses 
there that do need them.
    The next question is for Mr. Krislov and Ms. McLaughlin. 
One of my next panelists from the Student PIRG New Voters 
Project set up a MySpace page to solicit questions from college 
students across the country, and they asked me to be the 
facilitator to ask this question.
    Nelson, from the University of Southern California, wants 
to know, shouldn't colleges and universities have more than a 
good-faith effort to further civic engagement on their 
campuses, and does the Higher Education Act amendment of 1998 
demand enough from our schools, and has this been effective 
since the 10 years have passed? Anyone want to try to answer 
that question?
    Ms. McLaughlin. I think that some universities, 
universities that have the--the universities that participate 
in our consortium, there is actually various institutes, like 
the Dole Institute, the Baker Institute, the Institute of 
Politics, the John Glenn. When there is a staff that you can 
connect to, it really does make a difference. We have Laura 
Simolaris, who is here with us today, actually is a staff 
person who spends all of her time on this.
    I think it is important, it makes a big difference, to have 
some historical knowledge, because every 4 years the students 
are replicating and trying to rebuild something that has 
already been built. So having some point of contact would be a 
big thing for the universities.
    The Chairman. I think a point of contact would be a great--
lets them know that they are needed and that you are paying 
attention to them. I think it is a very good idea. Yes, sir.
    Mr. Krislov. I would say that this has been a high priority 
of mine in the colleges because we have such a strong tradition 
of civic engagement. I will mention that we have an initiative, 
a co-initiative for electoral politics, which supports students 
in internships and work opportunities to work on campaigns. We 
also provide a variety of speakers. Last night Newt Gingrich 
spoke on our campus and immediately afterward appeared on 
Hannity and Colmes. And this weekend Adrian Fenty will be 
coming to town. And so we believe in a diversity of views and 
informing our students and very much trying to encourage their 
engagement.
    The Chairman. Thank you. I am sure that Nelson would give 
me latitude there to anybody else, Iachetta or Albrecht, if 
they have anything that they would add. No? Okay. Thank you.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    As I indicated earlier, when I was in the academic world, I 
was involved in student registration activities. I think it is 
a great thing. And I personally started voting when I was 
college age. I think I have something like a 99.5 percent 
voting record since then, except for the years I was in Europe 
doing research. So I think it is a great thing.
    Let me, though, in the name of balance indicate some of the 
problems. I think it is very, very important for students to 
vote. That doesn't necessarily mean they have to register and 
vote where they are attending classes. And there are a couple 
of problems that I have observed.
    I have served in local government as well. I have to tell 
you, there is a lot of anger on the part of some of the 
citizens when students who don't pay any taxes change the 
outcome of an election which involves assessing taxes on 
citizens in that community. If, for example, there is a 
provision to build a new county building or a new jail or what 
have you, and it passes overwhelmingly because students voted 
for it, this does not help the town-and-gown relationships at 
all. So that is not something I blame the students about, but 
you have to recognize there is a problem there.
    A greater problem, I think, and one that does affect 
students, is to recognize that every State has different laws 
about various things involving residency. And now, Mr. Krislov, 
you are at Oberlin College, a very prestigious school. A lot of 
students, I assume, come from out of State there, and these 
students may spend 2 years there and then realize they can't 
afford the rest, so decide they should go back home to their 
State university where they should be able to get a preferred 
rate of tuition because they are residents. If, however, they 
register to vote in Ohio and then move back to Michigan or 
wherever it might be, are they still residents of the State 
according to the State's definition or the State university's 
definition of residency?
    That is something to worry about, because I have seen 
students caught in that, not because of the registering to 
vote, but moving to another State, acting like residents there, 
voting and everything else, and going back home and discovering 
lo and behold they cannot get the resident rate anymore even 
though they are an age where they thought they would.
    So maybe it is just my good old cautious nature as a 
professor who has advised a lot of students, be careful, check 
out your own State laws before you suddenly decide, hey, I am 
going to vote to register in Ohio or wherever it may be so, and 
so what, it won't make any difference. It can make a 
difference. And I just simply wanted to put that on the record. 
I don't know if anyone wants to contest that or elaborate on 
it, but it is a concern I have because of my involvement with 
students and the advising that I have done.
    Ms. McLaughlin.
    Ms. McLaughlin. The one thing that I would add to that, the 
CIRCLE polling at the University of Maryland said most students 
do want to vote at home and in their home State. And since this 
past week we spent the whole week doing registrations, we found 
that several students came to us, for instance, students from 
Illinois, who really wanted to vote at home, and because of 
the--we call them maroon voters, they are not allowed to vote 
because they had to either register in person, or they had to 
show up and vote for the first time in person. So unfortunately 
they now had to register in Massachusetts, which is not what 
they preferred to do. So I think knowing that there are some 
States that don't allow the opportunity to vote, that you have 
to vote in person the first time, these students said they 
couldn't afford to go home to vote, so they were going to fill 
out applications and vote in Massachusetts.
    Mr. Ehlers. So, in fact, if we would pass the Schakowsky 
bill, and I don't know if we will or not, then perhaps we 
should say that institutions could be designated as voting 
registry agencies for students who are away from home as well?
    Ms. McLaughlin. I think that would be very helpful, because 
we meet that all the time. There is about six States that have 
that problem, so I think that would be very helpful.
    Mr. Ehlers. I know I myself, when I was a student, 
registered to vote back home because I knew the people there, I 
knew the candidates, and I was in a city that I knew nothing 
about.
    Mr. Krislov. Could I just say that certainly if students 
want to vote in the States they came from, we would do what we 
could to help them. But I think that what many students find at 
a 4-year or greater institution like ours is that they actually 
grow increasingly committed to the local community, and that 
voting is part of that. And many of our students end up living 
and working there and staying for many, many years and 
participating in the economic and civic life. And frankly, I 
think that that is one of the additional benefits; by 
empowering them to vote, that you allow them to feel that they 
are fully engaged in the community.
    Mr. Ehlers. I agree. And I think there is just that natural 
transition. The first few years they ally themselves with their 
home community. After a few years they have been co-opted by 
the institution, and they decide they want to ally with them.
    No further questions.
    The Chairman. Mr. Davis.
    Mr. Davis of Alabama. Thank you, Mr. Chairman.
    Ms. McLaughlin, when I was a junior at Harvard school that 
you are connected to, I made the decision to register to vote 
back in Alabama because, frankly, Alabama Democrats needed me 
more than Massachusetts Democrats did. But it was a choice. And 
I don't know if there is any--I would probably disagree with 
Mr. Ehlers a little bit. I am not sure there are any broad, 
overarching public policy values that undercut young people 
choosing where they want to vote. They shouldn't be able to 
vote twice. I don't think anybody would argue for that. But I 
am not sure I see any broad public policy reasons that ought to 
constrain them making the choice.
    Ms. Iachetta, if I am pronouncing your name right, I fully 
understand that your county is UVA and not Virginia Tech. And 
if you are like most registrars, I know you are loathe to be 
asked about what another registrar did, but you knew you were 
going to be here today and you would be. So I don't want to 
miss the opportunity. I was really struck by the story I read 
in The Times back on September 8th about one of your 
counterparts did, and I take it it is Montgomery County, the 
county that houses Virginia Tech.
    Ms. Iachetta. Yes, sir.
    Mr. Davis of Alabama. And there were two things I suppose 
that concerned me. And I was bothered by a trained registrar 
relying on research from an intern to issue an opinion, but I 
won't even get into that.
    Ms. Iachetta. Thank you, sir.
    Mr. Davis of Alabama. I was troubled, though, by one 
observation Mr. Wertz made. I want to just read this to you and 
see if this is your experience. The registrar Mr. Wertz was 
asked about the interpretation his office advanced, and I think 
most people here are familiar with it, that you can lose your 
dependent status on your tax returns if you register to vote in 
Virginia and not back home; that your health or automobile 
insurance or your scholarship status or tuition rates could be 
affected by that. And he was quoted as saying in The Times, and 
if this your primary residence, you have to register your 
vehicle here, change your driver's license to here and so on. 
It has been the interpretation in State training sessions. Is 
that the interpretation you have received in State training 
sessions?
    Ms. Iachetta. No, sir, it is not the interpretation. And I 
would like to go on record to say that the reason that--we have 
134 registrars in the State of Virginia, and all of us 
interpret it differently because it is not very clearcut in our 
specific law. And that is not how I interpret it. I interpret 
it as if a person comes before me, and they are 18 years of 
age, and they qualify under Virginia law to register to vote, I 
don't have----
    Mr. Davis of Alabama. It is their choice.
    Ms. Iachetta. It is their choice. I can't second-guess 
that, I can't question that, I can't question any voter. And if 
I start questioning voters, and if I start putting people in 
different groups, then I am going get myself in trouble under 
Virginia being under the Voting Rights Act of 1965 because you 
can't create a special class of voters.
    Mr. Davis of Alabama. And I am just trying to look at some 
recent history here. Do you know--you have been to training 
sessions, you study your field. Do you know of any student 
anywhere in the United States of America who has ever been 
prosecuted for trying to vote in the place in which they 
attended college?
    Ms. Iachetta. No, sir, I haven't come across any 
information like that.
    Mr. Davis of Alabama. Do you know of any voter fraud case 
every brought against a student saying, oh, you say you live in 
Alabama, you really live in Kentucky, so we are going to put 
you in jail because of that? Have you heard of any single case 
like that anywhere in America?
    Ms. Iachetta. No, sir, I haven't heard anything.
    Mr. Davis of Alabama. I have not either. I would find it 
very curious.
    There was a district attorney in Waller County, Texas, in 
2003. Waller County is the home of Prairie View A&M and HBCU, 
primarily a black college, and the DA wrote a column in the 
newspaper, irrespective of a few canons of ethics, but what are 
ethics? The DA wrote a column in a newspaper threatening to 
prosecute students who were attending Prairie View, but who 
were--I suppose the parents lived out of State, so they could 
prosecute them. And that just struck me as something that was 
very bizarre 5 years ago.
    I have a basic rule for how I assess events. If something 
reminds me of an event that would happen if I stepped in a time 
machine and went back to 1963, I tend to be dubious of it 
because I like now much better than I think I would have liked 
1963.
    But do any of you have any reaction, and, Ms. McLaughlin, I 
guess I will turn to you in deference to the IOP. I think the 
overarching public policy question here is kids ought to have 
the right to choose where they vote. Obviously they can't vote 
twice, but have a right to choose where they vote. I see no 
countervailing public policy interest that ought to constrain 
their choice. I think the Supreme Court has broadly agreed with 
me. I mean, am I right or wrong?
    Ms. McLaughlin. I believe you are right on that issue. I 
don't believe students are trying to vote in two places. I 
think they just want to vote, and the easiest way they can get 
there is what they want to do.
    Mr. Davis of Alabama. And I would just close, Mr. Chairman. 
It may very well be that sometimes students cause elections to 
produce results members in communities don't like. If I were to 
sample people who lived in my district, they ain't crazy about 
everything we do in Washington, and they don't always feel the 
outcomes adequately represent their interests. That is life in 
the big city sometimes.
    Thank you, Mr. Chairman.
    Mr. Ehlers. Will the gentleman yield?
    Mr. Davis of Alabama. I am out of time, but I would be 
happy to yield to the Ranking Member.
    Mr. Ehlers. I just wanted to comment. I was not raising an 
issue of broad public policy with my comments. It is simply 
that students should be aware that there may be ramifications 
back home. And counseling a student who has lost their instate 
tuition advantage is a pretty heartbreaking situation.
    I also want to mention just, as you well know, Virginia 
State Board of Elections, Virginia law clearly states that it 
is up to the registrar to make the decision and no one else.
    The last comment and a very quick one, you commented you 
voted in Alabama because you thought they needed your help 
more. I can assure you that if you had just voted Republican, 
the Massachusetts Republicans needed help a lot more than 
anyone in Alabama did. It is a real endangered species.
    I yield back.
    Mr. Davis of Alabama. You may have explained how Clarence 
Thomas became a Republican, Mr. Ehlers. I think now I 
understand it.
    The Chairman. Thank you.
    I just have one real quick question. Ms. McLaughlin, you 
said that there are six States where people have to vote, when 
they vote the first time, in person. Do you know what they are?
    Ms. McLaughlin. They either have to register in person, or 
they have to vote for the first time in person.
    The Chairman. In other words, if I registered in person and 
not by mail, they make a notation that I registered in person, 
and then I can vote absentee.
    Ms. McLaughlin. Yes.
    The Chairman. But if I registered by mail, then I have to 
vote in person.
    Ms. McLaughlin. Yes.
    The Chairman. Do you know what States they are?
    Ms. McLaughlin. I can get you those. I believe New 
Hampshire, Wyoming--Michigan, Illinois, Tennessee and 
Louisiana. I am sorry, it is four States that we know.
    The Chairman. Michigan, Illinois----
    Ms. McLaughlin. Tennessee and Louisiana.
    The Chairman. All four of them, either/or. Somebody would 
have to be in person either one of them. And they make a 
notation, I guess.
    Ms. McLaughlin. I don't know. I just know that they have 
made it clear to us that we can't send in something. They 
either have to register--we actually this year sent out e-mails 
to students who said they were interested in the Institute of 
Politics prior to them coming to the freshman dean's office and 
sent a note to students saying in the States, if you need to 
register, you might want to do that before you come to college. 
So technology has really been a huge benefit for us.
    The Chairman. You need to register in person.
    Ms. McLaughlin. Register in person before you come here so 
that you can do an absentee ballot.
    The Chairman. Thank you, and thank all of you for your 
interest and participation. Thank you.
    The Chairman. I would now like to call up our third panel, 
please. Thank you. Please understand we may be--our 
understanding is there may be votes coming up soon. It is no 
way, any shape or form a disrespect, but we do have to leave 
and vote and come back. We will try to get through as quickly 
as possible. That does not mean we are trying to cut you off in 
any away either. Speak as long as you like, or 5 minutes is all 
entitled to you. Thank you all for being here.
    Our first person on our panel is Sujatha Jahagirdar. Not 
bad, huh?
    Ms. Jahagirdar. Perfect.
    The Chairman. Okay. Ms. J is the program director for 
Student--I am not trying it twice--for Student PIRG, a 
nonpartisan effort to mobilize young voters. She has worked to 
study contemporary young voting turnout trends, as well as 
worked to train student leaders across the country in the 
skills of mobilizing young voters. I commend Ms. J on her 
efforts and thank her for coming here today. And you may start 
your testimony.

  STATEMENTS OF SUJATHA JAHAGIRDAR, PROGRAM DIRECTOR, STUDENT 
 PIRGs NEW VOTERS PROJECT; MATTHEW SEGAL, EXECUTIVE DIRECTOR, 
  STUDENT ASSOCIATION FOR VOTER EMPOWERMENT; LAUREN BURDETTE, 
    STUDENT, UNIVERSITY OF PENNSYLVANIA; AND JACQUELINE VI, 
                  STUDENT, AMERICAN UNIVERSITY

                STATEMENT OF SUJATHA JAHAGIRDAR

    Ms. Jahagirdar. Thank you, Chairman Brady and the 
committee, for----
    The Chairman. It is appropriate, if you like, you can 
pronounce my name to the people. We will be even.
    Ms. Jahagirdar [continuing]. For providing the opportunity 
to address you today. I am a program director with the Student 
PIRGs New Voters Project. The Student PIRGs are the largest 
student civic engagement program in the country. Our New Voters 
Project is the oldest and largest effort, nonpartisan on-the-
ground effort, to mobilize young voters in the Nation. As we 
speak right now 85 organizers are working on 150 college 
campuses in 24 States running massive voter registration and 
mobilization drives that combine on-the-ground and on-line 
organizing to ensure that young people turn out on November 
4th.
    Young voter participation is essential to our democracy. 
And recognizing that, in 1972 Americans granted young Americans 
between the ages of 18 and 21 the ability to vote. Immediately 
subsequent to that decision, young voter rates actually went on 
the decline for several decades. But the great news is that in 
recent elections young voter turnout is on the rise. And, in 
fact, in 2004, young voter turnout increased by 11 percent, 
which was triple the increase rate of the general population. 
And in 2008, in States where comparison data is available, 
young voter turnout rates actually doubled.
    So we are at a very exciting time right now in our Nation's 
history, and as policymakers and local officials and education 
officials look at these trends, we should be asking ourselves 
one fundamental question: How can we keep the momentum going? 
How can we ensure that young people continue to show up in 
bigger and bigger numbers?
    And despite the importance of resolving this question, 
several barriers continue--persist that make it more difficult 
for young people to show up and cast their ballot at the polls. 
And what I am going to spend the next few minutes on in my 
testimony is identifying where those problem areas are and 
proposing solutions to those problems.
    The first are restrictive photo identification laws. Every 
State in the country requires its citizens to present proof of 
or swear to residency in order to cast a ballot. Unfortunately, 
in specific instances, these requirements end up creating 
unintentional barriers to student voters.
    The State that has most illustrated this problem is 
Indiana. During the primaries, a new Indiana law came in effect 
that actually required students to present either a State-
issued or a Federal-issued photo ID when they arrived at the 
polls. The problem with this law is that many students don't 
actually possess this required identification. And, in fact, in 
just a few hours, a small team of our staff in Indiana 
documented a dozen cases of students who showed up at the polls 
to vote on primary day and weren't able to cast a ballot 
because they lacked the required identification. And these were 
not surreptitious attempts at voter fraud; these were bright-
eyed, bushy-tailed students who showed up very excited to 
exercise their rights as citizens for the first time.
    And, in fact, at Saint Mary's College, which is a sister 
school to Notre Dame University, two students I talked to 
really struck a chord. They both volunteer at the local 
elementary school, they are members of the campus ministry, and 
they just happened to be born in Illinois and were at Saint 
Mary's for college. And they arrived at the polls armed with 
identification, with their school ID, with their birth 
certificate, with a card issued by the local registrar, with 
their driver's license from Illinois, and they were refused the 
ability to vote that day. And when I talked to them, really it 
was hard to miss the tone of dejection and really 
disillusionment at the message that they had been sent that 
day, which was they are not welcome in our democracy. So that 
is voter identification laws.
    Other issues that have arisen have already been mentioned 
by the committee, which are restrictive interpretations of 
State law. In Virginia there have been recent instances where 
local registrars have issued warnings to students predicting 
potential dire consequences for registering to vote where you 
go to school. And unfortunately, Virginia is not the only place 
where this has arisen. In fact, in South Carolina local 
registrars have provided similar advice to students. In fact, 
this was reported just today in the press. A local registrar in 
South Carolina around Furman University tells students that if 
they are registered as--if they are included on their parents' 
tax returns as dependents, that they are not able to vote where 
they go to school as a blanket policy, which is incorrect 
information.
    To prevent a repeat of the Virginia Tech incident and 
similar incidents across the country, States should withdraw 
confusing and restrictive guidance for student photos that are 
subject to gross misinterpretation at the local level and lead 
to enormous barriers to students voting.
    And the final challenge to voters that I would like to talk 
about today is inadequate voting infrastructure. As has already 
been mentioned today, we anticipate very large increases in 
youth turnout on November 4th. It is very exciting for 
democracy. And if you just look at the turnout in 2008 in the 
primaries, you get a sense of how big this might be. In Ohio, 
for example, all 88 counties in the State had turnouts in the 
2008 primaries that were greater than 70 percent of the turnout 
in the 2004 general elections. That means that the turnout in 
the primaries was approaching the turnout in the general 
election from the previous cycle. And the national average is 
usually--the historical average is usually only 30 percent. So 
if registrars are looking at their numbers and just trying to 
figure out what resources they should have, if they are trying 
to figure out how many pollworkers they should have, how many 
ballots they should order, how many voting machines they have, 
if they just look at the 2004 numbers and increase it by 10 or 
20 or 30 percent, we are worried that we are going to see 
massive shortages across the country, especially in student-
dominated precincts where I think we will see even greater 
increases. So it is absolutely essential for local officials to 
anticipate these increases.
    And finally, under the infrastructure category, really we 
should see an increase in the number of on-campus polling 
places that are placed at institutes of higher education across 
the country. On-campus polling places make it easier for 
students to vote. They ease the burden on off-campus polling 
places. And most importantly, they help the university 
themselves fulfill the educational mission of the campus by 
providing students with the ability to have their first lesson 
in civic education.
    So in conclusion, again I would like to thank the committee 
for holding this hearing, for looking into this important 
issue. I would like to thank Congressman Ehlers for standing on 
campus and registering voters when he was in Michigan. And the 
great news is we are here because young people are voting in 
bigger and bigger numbers. It is really great for democracy. 
And the thing that we should do is take a few simple steps to 
make it even easier for young people to show up at the polls, 
and by doing so we will send a strong message to students who 
are across the country and here in this room that their vote is 
not only encouraged, but aggressively advocated for.
    Thank you very much.
    The Chairman. Thank you.
    [The statement of Ms. Jahagirdar follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Mr. Matthew Segal is the executive director 
of Student Association for Voter Empowerment, a Washington, 
D.C.-based nonpartisan organization founded and run by students 
with a mission to increase youth voter turnout by removing 
access barriers and promoting stronger civic education. Mr. 
Segal has truly been an effective advocate for students' 
rights, and we are honored to have him here today and listen to 
his testimony.

                   STATEMENT OF MATTHEW SEGAL

    Mr. Segal. Thank you.
    Good afternoon, Mr. Chairman, Ranking Member Ehlers and the 
committee members. I thank you for inviting me here today, and 
particularly grateful for the opportunity to testify on such an 
essential and pressing topic.
    I also want to thank my friend Congresswoman Jan Schakowsky 
for her leadership in joining Senator Dick Durbin and 
Congressman Steven LaTourette to introduce the bipartisan 
Student VOTER Act of 2008.
    My name is Matthew Segal, and I am the executive director 
of the Student Association for Voter Empowerment, otherwise 
known as SAVE. A national nonprofit association founded and run 
by students, SAVE's mission is to increase youth voter turnout 
by removing access barriers and promoting stronger civic 
education. I speak here today representing a constituency of 
over 10,000 members on 30 college campuses across the country.
    Almost 4 years ago as a 19-year-old college student, I 
entered the Rayburn Building to testify before the House 
Judiciary Committee panel about the 10-hour-long voting lines 
at Kenyon College in Gambier, Ohio, where I recently graduated. 
I told the panel then that voter disenfranchisement had 
occurred, and that we should never make voting this arduous a 
task ever again, and that was a quote.
    Unfortunately, today I have little good news to report 
about the legislative steps we have taken since then in order 
to guarantee an accessible and participatory voting system for 
our Nation's college students.
    Many of the student voting problems I will address today 
were compiled in a hearing SAVE held last summer where we 
invited kids around the country to come talk about the problems 
they face, and I ask the Chairman for permission to submit our 
50-page report into the record.
    The Chairman. Okay.
    Mr. Segal. Thank you.
    As we all know, in order to vote, we have to register, and 
in some cases students face overt legislative attempts to 
prevent them from registering at their college or university. 
For example, SAVE heard testimony that every year a bill is 
introduced in the Maine State Legislature prohibiting students 
living in college-owned housing from claiming residency. While 
the bill has not yet passed, its purpose is unclear other than 
to encumber the rights of thousands of college students who 
wish to vote in their new communities. According to the former 
vice president of the Maine College Democrats who testified 
before our SAVE committee, the State legislator who introduced 
this bill claimed it could cut the potential for voter fraud, 
despite being unable to present any previous evidence of voter 
fraud in college districts. And he also went on to say that 
college students do not have a vested interest in the State of 
Maine, and that they would dilute the voting power of long-term 
residents in their counties.
    College students live 9 months of a year in their new 
homes, however, and provide substantial economic support to 
their college communities. But most importantly, college 
students have a legal right to vote where they attend school if 
they live in that State for 30 days. Just because students live 
on a campus does not mean Federal law can be ignored.
    Fortunately, this particular bill did not pass, but many 
local boards of elections across the country effectively 
practice the same discriminatory statements that the Maine 
Legislature preaches. Since State statutes expressly prohibit 
the use of a P.O. Box for registration purposes, officials 
frequently turn student voters away by failing to recognize 
dormitory addresses as legitimate residences.
    Finally, several instances of election officials presenting 
residency questionnaires to students have been reported, 
another student testified in our hearing last summer. In 2004, 
the board of elections in Williamsburg, Virginia, asked 
students to complete a questionnaire relating to the location 
of their parents' home, possession of property outside the 
town, and their place of worship. Such detailed information was 
not required, however, of other residents and was collected 
most likely to establish a reason to reject a student's 
registration form, by all means a discriminatory practice.
    Misinformation campaigns, as was previously alluded to 
today, are another example of what hinders youth participation. 
My colleague spoke on Virginia Tech, and I learned this very 
morning about another case at Colorado College where the El 
Paso County clerk also told students that their parents would 
lose their ability to file them as a dependent on their tax 
forms if they were to vote in Colorado and be from out of 
State. In 2004, at the University of Pennsylvania, fliers were 
also posted around talking about the possibility for students 
losing their driver's licenses or scholarships or grant money 
were they to vote in Pennsylvania. The key difference between 
Penn and Virginia Tech, however, was that the posters at Penn 
did not appear until after the registration deadline, and, 
therefore, several students were intimidated from voting 
completely because it was too late for them to register for an 
absentee ballot.
    While long lines or deceptive fliers can create a clear 
graphic image of college student voting barriers, perhaps the 
most insidious obstacle are voter ID loss. Now, my friend Jan 
Schakowsky spoke to this earlier, so to avoid redundancy I will 
move on and finally say that I would be remiss if I did not 
address the long lines.
    I find it curious that many of the long lines reported in 
2004 and 2006 took place in heavily populated student 
communities. Kenyon students waited 10 hours. Oberlin students 
waited 5 hours; Dennison, 4 hours; and Bowling Green College, 3 
hours. The list continues. In some instances the intent here 
might have been egregious, but in most instances boards of 
elections allocate voting machines or resources on the basis of 
past voter turnout and were not prepared for an increase in 
youth participation which we have now steadily seen in the last 
8 years of midterm and Presidential elections. At my alma 
mater, Kenyon College, there were two voting machines allocated 
for 1,300 registered voters, one of which broke down.
    So let me ask this question: What standards or safeguards 
are in place to ensure that Kenyon College 2004 can never 
happen again? Most States still do not have a quota or ratio of 
how many machines or ballots they allocate per number of 
registered voters. Simply put, we need these safeguards.
    In closing, I want to say that SAVE is fully committed to 
protecting student voting rights and removing the unique and 
challenging barriers that many young Americans face when 
attempting to vote. SAVE is now partnered with EVOCA Voice 
Services so that any young person can use their mobile phones 
to call a 1-866 number on our Web site and upload audio 
accounts of their voting experience on line. We also have 
partnered with Campus Advantage, a premier residential life 
organization, to launch studentvotingrights.org, which we also 
encourage elected officials and the media to visit so they can 
continue to monitor young voter access stories and track 
disenfranchisement among our particular group of young 
Americans.
    Thank you, Mr. Chairman, for inviting me here today. I look 
forward to updating this committee on student voting accounts 
throughout the coming weeks and months, and more importantly, I 
also look forward to achieving bipartisan election reform 
legislation to ensure that all Americans, including young 
Americans attending colleges, can exercise their rights of 
citizenship and vote where they live.
    Thank you.
    The Chairman. Thank you.
    [The statement of Mr. Segal follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. We do have a vote. We are going to go a 
little further, as far as we can go, but we will come back for 
questions. We will come back to ask questions for you.
    Lauren Burdette is a junior at the University of 
Pennsylvania. I am delighted to have Lauren here today with us 
to share some of her experiences with the voting process.
    Lauren.

                  STATEMENT OF LAUREN BURDETTE

    Ms. Burdette. Chairman Brady, Ranking Member Ehlers, 
committee members, thank you for the opportunity to testify 
today at this important hearing. Thank you also to the Student 
Association for Voter Empowerment for inviting me here to speak 
on behalf of student voters.
    My name is Lauren Burdette, and I am here to represent my 
perspective as a student leader at the University of 
Pennsylvania. On Penn's campus there is a huge student-led 
effort to register other students to vote. We have had a lot of 
success reaching out to students who are involved in groups on 
campus. We have a table on the main walkway every day between 
10 and 4 p.m. Where students can register and drop off their 
completed forms. We hang posters throughout campus on a weekly 
basis, advertise on our listservs Web page and Facebook page. 
Penn does not allow dorm canvassing, although we are staging 
weekend off-campus and fraternity house canvassing. Overall we 
have had a lot of success working alongside Penn's 
administration and other student groups to promote voter 
registration at Penn this semester.
    Some of the problems we have run into, however, have 
serious potential to hamper student voting. The bureaucracy and 
inefficiency of the Philadelphia board of elections is 
staggering. The voter registration deadline is typically 1 
month before the actual election. Philadelphia does not have 
same-day registration. The biggest problem students face is not 
knowing whether their registration form was processed before 
the deadline passes. It generally takes 4 to 6 weeks once the 
form is received by the board of elections before a voter 
registration card is issued. If something is wrong with a form 
and it is not processed, the board of elections does not notify 
the individual; therefore, most students do not realize their 
form did not go through until they actually reach the polls. At 
this point they are unable to vote normally in the election.
    But under the 2002 Help America Vote Act, they should be 
able to vote provisionally. Unfortunately, most pollworkers are 
not trained properly, and most are not well versed in voter 
registration law. In the 2008 Pennsylvania primary, several 
Penn students who registered to vote were not on the rolls and 
were turned away at the polls by uninformed and untrained 
pollworkers instead of being given the option to vote 
provisionally. This is an egregious problem, especially in 
Pennsylvania, since it is a critical swing State in all 
Presidential elections. But more importantly, it illegitimizes 
the entire voting process for students, making it less likely 
that they will vote in the future.
    I do not think this is a concerted effort to disenfranchise 
students; rather, it is ineffective training and an uninformed 
group of pollworkers unintentionally preventing students from 
exercising their full rights under the law.
    There are other examples, however, of a much more 
complicated misinformation campaign that results in students 
not knowing their full rights under the law and purposefully 
not voting because of those incorrect beliefs. Many students 
are told that voting at their college residence will cause them 
to be taken off their parents' health insurance or prevent 
their parents from claiming them as a dependent, or will cancel 
their Federal financial aid, none of which are true. Still 
other students are told they must vote absentee if they are 
going to vote at all. While some students manage to navigate 
the complicated absentee ballot system successfully, many do 
not get their ballots turned in on time or filled out correctly 
and thus are not allowed to vote at all.
    Beyond silent misinformation campaigns, there are overt 
examples of false information being posted around campuses and 
in the community. I have an example of a flier that I would 
like to submit for the record that was plastered on the 37th 
Street SEPTA stop at Penn's campus that said in a rather 
bipartisan manner that anyone who has an outstanding parking 
ticket will be arrested if they try to vote on election day. 
Clearly the letter is not official, and I personally do not 
believe it is targeting Penn students, but instead is targeting 
the employees who work at Penn or the hospital at the 
University of Pennsylvania. Regardless, the only spot these 
have been found so far is at the trolley stops on Penn's 
campus.
    We are continually combating false information, and it 
makes the job of registering students and turning them out to 
vote much more difficult.
    A final factor that makes voter registration and voting 
itself difficult for students is their mobility. Most students 
change residences each year they are in college, which means 
they need to reregister. This is a time-consuming, confusing 
and often unknown requirement for voting.
    One perennial problem is that voter rolls have multiple 
individuals listed at the same address. Dormitories especially 
have a high turnover rate. This process makes figuring out who 
actually lives there and is therefore eligible to vote very 
difficult. To combat this problem, for the first time this year 
we are telling college students to put their room numbers in 
the apartment number section of the form. No one typically does 
this because a college student's room number is not part of his 
or her address like a normal apartment is. They always deliver 
to a box number, which is different from the room number. By 
ensuring the room number is listed, we can verify without a 
doubt who actually lives in the room and who owns the box 
number should the eligibility of any of the voters be 
questioned.
    A major part of an easier voter registration for students 
lies in allowing for same-day registration on college campuses 
everywhere. This will alleviate many of the problems students 
face by allowing them to change their address at the polling 
place, receive accurate answers to any questions they may have, 
and, more importantly, to ensure that they have the same right 
as every other citizen in the United States, the right to vote.
    Thank you.
    The Chairman. Thank you.
    [The statement of Ms. Burdette follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. We do a good job at the University of 
Pennsylvania. I happen to be prejudiced toward that university. 
I teach there, and still teach there for the last 13 years. I 
want everybody to know what a great job you did representing 
them. Unfortunately, could we put you on hold? You will be the 
last and the best, I am sure, and not the least, that is for 
sure. We do got to vote. We will come right back. Thank you. 
Just relax. We will be right back. Thank you.
    [Recess.]
    The Chairman. I would like to call the hearing back to 
order, please. I apologize for our brief recess due to votes.
    Our next member of the panel is Jackie Vi.
    Ms. Vi. Vi.
    The Chairman. Jackie Vi. Jackie Vi is a current student at 
American University, and we look forward to her testimony. 
Thank you for coming here today. You may proceed.

                   STATEMENT OF JACQUELINE VI

    Ms. Vi. Thank you very much, Mr. Chairman and members of 
this committee. I am honored to have the opportunity to appear 
before this committee to discuss college student voting. My 
statement will be brief because I think this issue is simple.
    College students should be given all the information they 
need to make well-informed decisions about where and how to 
vote.
    My name is Jacqueline Vi. I am 18 years old and a freshman 
at American University, majoring in international relations. I 
hope to one day work for the State Department at an embassy 
overseas.
    My feelings about voting as a college student comes from my 
basic belief that with a right to vote comes responsibility. As 
a young adult voting for the first time, I feel it is important 
to be aware of whom and what one is voting for on Election Day. 
Voting is a sacred right, and democracy works best when voters 
know about what is going on in the world and in their 
community.
    At this committee's hearing yesterday many of the witnesses 
talked about the importance of educated voters. And I think 
they are right. Part of the college experience, in addition to 
learning math, science and history, is learning how to think 
for ourselves and how to make adult decisions. I think that the 
issue of voting is a perfect example of what I mean. I am from 
Lakewood, California, which is in California's 39th 
Congressional District, represented by Congresswoman Linda 
Sanchez.
    In March of this year, 1 month before my 18th birthday, I 
registered to vote. As a legal resident of California I feel 
that my vote would be better served in the community where I 
have lived for most of my life and which I remain to have ties 
to, because my family still lives there. For example, in the 
upcoming election California's Proposition 6, also known as the 
Safe Neighborhood Act, will be on the ballot. Prop 6 will take 
away State funding from education and direct it towards 
eliminating bail and increasing penalties for several crimes. 
As a former student in the public school system, I believe that 
the money would be better spent on bettering the education 
system rather than paying for longer jail time for criminals.
    I know that several members of this committee are also from 
California, Mr. McCarthy, Mr. Lungren, Ms. Lofgren and Mrs. 
Davis. And whether your supporters oppose Prop 6 I am sure that 
just because you spend a lot of time here in D.C., like I do, 
that doesn't mean that you don't want to be able to vote on its 
proposition on Election Day.
    Many students like me choose to keep their legal residency 
as home because we feel connected to the place where we grew 
up. For students like us, we believe that we should vote for 
the elected official who represents the community of our legal 
residence and vote on issues that impact the place that we 
consider home. I don't know where I will live after graduation, 
but I know as of right now my home is still California.
    However, in order to be able to vote as a Californian I 
have to vote absentee. I do not believe that just because I 
will physically be in Washington on November 4th that I should 
vote in Washington, D.C., especially because I am more like a 
visitor than a resident of this city. I know that decisions 
made by the local government officials in Washington, D.C. May 
have an impact on me, but I have a California driver's license 
and in my heart I know I am a Californian.
    I know that every State has different rules about how to 
vote absentee, but it is easier in California than in some 
other States like Virginia. But I still managed to register and 
request an absentee ballot without any problems. First, I went 
to the Post Office to get a voter registration application. It 
only took a few minutes to fill out. I mailed it back to the 
election boards and they mailed me back a confirmation. After 
that, requesting an absentee ballot only took one focal. I 
expect my ballot to arrive at my address here in D.C. sometime 
this week.
    I know that some people say that it is too complicated for 
students to request an absentee ballot, but I think that is 
just an excuse for laziness. Sure, it would be much easier to 
roll out of bed on Election Day and then think about voting 
rather than planning in advance to vote absentee. But I don't 
think that kind of attitude is the right one for our Nation's 
young people.
    Shouldn't we strive to develop civic pride and awareness in 
college students? After all, aren't they the future of this 
country? Plus, these days people move all around the country 
more frequently than our parents' generation did, either for 
jobs or for other reasons. We will need to know how to register 
to vote in these new cities and towns. What better time to 
teach young people these important lessons than in college?
    I would like to thank the committee for listening to my 
testimony, and I really appreciate the committee's interest in 
the importance of student voting rights. In addition, I would 
like to thank you for giving me the opportunity to participate 
in this hearing. Not many college freshmen can say they have 
testified before the U.S. Congress on an issue directly 
impacting college students. I will never forget this 
experience, and I would be happy to answer any of your 
questions you might have.
    [The statement of Ms. Vi follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, thank you very much.
    I would like to start off. I have heard testimony that 
there have been some problems at the polls because of the poll 
workers or poll watchers. Do any of your organizations, are you 
putting any kind of a program together where you can entice 
some of these young college students--I understand our poll 
workers average 72 years old. So they may have a wealth of 
knowledge or maybe they may move a little slower than somebody 
22 years old. That is not saying nothing bad about the 72-year 
olds, but wouldn't it be nice to have some type of program 
where you can get more people, more college students right 
there on campus where the voting booth is, to have them there? 
And I shouldn't have to say that if there are people doing 
things that aren't right, and we heard about and I saw the 
fliers that they are passing out, if they see somebody right 
there, there is a student right there, they will be identified 
by just who you are. You can be identified by wearing your 
sweater or whatever. You can't wear anything partisan there. 
But that would maybe deter them from trying to do something 
that they can maybe try to fool somebody, because they may know 
somebody there who is knowledgeable. They go to class and you 
learn it. I think it would be a good idea to get that done and 
they can help us set up the election process. Have you been 
addressing that?
    Mr. Segal. Yes, Sujatha and I both, both our organizations 
have worked really hard to make sure that poll workers are 
young and that young people who have grown up in this age of 
technology are the ones overseeing many of the electronic 
voting systems, and that young people are helping the elderly 
carry the ballots in the different boxes and the voting 
equipment at the polling place. So we have found that they have 
a great relationship. We are trying to get young people to take 
ownership of elections as administrators, and both the PIRGs, 
SAVE, and a host of other youth organizations have poll worker 
programs currently in place.
    Ms. Jahagirdar. And we do believe there is a legitimate 
need at the local level for greater resources to administer 
elections, and among those are poll workers. So from a pure 
manpower perspective, we are very active in recruiting. In 
fact, next Wednesday we are sending out an e-mail blast to 
250,000 of our student members recruiting, actively recruiting 
poll workers for the upcoming election.
    The Chairman. That would be helpful for a lot of reasons. 
Also, it is helpful to have these hearings to make it visible, 
bring to light a whole lot of issues that are happening. It 
would be good if you can get me or get the committee some of 
the things. We have got a flier that was out there that was 
completely erroneous. Any other things that they are doing, we 
would like to know about that. We may be able to stop it or 
maybe let other people know that we know about it and educated 
before it happens. After it happens, that ship sails. It is 
really tough to bring it back in again. But we have still a 
little bit of time, 40 some days, to try to hopefully stop it 
and the propaganda issues is what I am really speaking of. Let 
people know that we know that and make them know that you don't 
lose your driver's license, you don't lose your student loan or 
you don't lose your residency.
    In the City of Philadelphia you can't get locked up for 
parking tickets. I don't know where else, but not in 
Philadelphia. But if you let us know more of those things, it 
would be helpful.
    So thank all of you.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. During your testimony 
a number of you listed a lot of different things that happened 
that you thought were bad and terrible, and they probably were. 
I just have to tell you that that it is not necessarily 
malicious. We just went down to vote. We spent 45 minutes 
casting one vote, 15 minutes, or probably 10 minutes, 
discovering that there was an error in the bill. We then had to 
proceed to unvote and then send it back up to the Rules 
Committee, and then we finally voted on an inconsequential 
bill. So in 45 minutes we accomplished one very minor task. 
People make mistakes.
    I do have to admit I get a little nervous when you talk 
about people 72-years-old making a lot of mistakes, since I am 
older than that and I might take that personally. But in fact a 
lot of people----
    The Chairman. He is directing that at me. You are fine.
    Mr. Ehlers. No, no, everyone.
    At any rate, the point is don't always assume that people 
are out to deliberately restrict your right to vote. Clearly 
some are, but not necessarily all. There were a lot of 
misunderstandings that have taken place, largely because poll 
workers, bless their souls, they are wonderful people, they 
work very hard, but they do this only a couple times a year. 
And when you do something just a couple times a year, it is 
very easy to make mistakes.
    Ms. Jahagirdar, you talked about the problems with photo 
ID. I take it you were talking about Indiana.
    Ms. Jahagirdar. Yes.
    Mr. Ehlers. I was a bit puzzled by that, because I don't 
know the exact requirements of the law there. But isn't a photo 
ID issued by the university adequate to establish?
    Ms. Jahagirdar. Yeah. Well, there actually ended up being a 
distinct, quite a bit of a discrepancy, in a student's ability 
to vote based on that particular provision, because if you went 
to a public university that did count because it had a photo ID 
and it was issued by the State. But if you went to a private 
institution it wasn't issued by the State. And so where we 
found instances of students not being able to vote were largely 
around Notre Dame and other private universities. And I don't 
believe that that was an intention of the law. I don't think 
they were intending to try to create a separate set of criteria 
for students who attend private schools, but that is what 
happened.
    Mr. Ehlers. Okay. Ms. Vi, I was very impressed with your 
testimony, and I hope you have a very successful career in the 
Foreign Service.
    Ms. Vi. Thank you.
    Mr. Ehlers. I do appreciate the point you make and that is 
partly because it emphasized the point I was making earlier. No 
one should try to force students into either mode. They have 
the right to vote either in their place of residence, their 
home, or where they are attending school. I think they should 
have that choice because, as I said, my first few years I chose 
my home, I was familiar with it. Later on I chose the place 
where I was going to school because I had become familiar with 
that. And so I think the real issue here is to make sure that 
students have the right to vote, that they can vote and that 
they have a choice of which jurisdiction they want to vote in, 
and I think that is about all we can do here.
    We are writers of the law. We are not implementers of the 
law. And so even though we like to hear the stories about what 
has gone wrong so we can try to correct it, we can't directly 
correct it other than by rewriting the law.
    Mr. Chairman, I have no further questions.
    The Chairman. Thank you. And again thank all of for your 
interest, your participation. Someone made a point earlier that 
when you deter a young voter, especially a first time voter, a 
college voter, from voting it is really hard to get them back 
interested again. So hopefully this hearing will bring some 
light to that and hopefully we will be able to avoid all that.
    Ms. Jahagirdar. I apologize. I request permission to enter 
the campaign tool kit for the New Voters Project into the 
record.
    The Chairman. Without objection, you may.
    [Whereupon, at 4:19 p.m., the committee was adjourned.]
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you all again. And without objection 
all members will have 5 legislative days to submit to the Clerk 
additional written questions for the witnesses or to submit any 
additional material for inclusion in the record. Again, I thank 
all of you, and this hearing is now adjourned.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
